<html>
<title> - H.R. 1838, THE TAIWAN SECURITY ENHANCEMENT ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
             H.R. 1838, THE TAIWAN SECURITY ENHANCEMENT ACT

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                       Tuesday, October 26, 1999

                               __________

                           Serial No. 106-111

                               __________

    Printed for the use of the Committee on International Relations




 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-747 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Jill N. Quinn, Staff Associate




                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Markup of H.R. 1838, The Taiwan Security Enhancement Act.........     1

                                APPENDIX

Prepared statements:

The Honorable Dana Rohrabacher, a Member of Congress from 
  California.....................................................    64

H.R. 1838........................................................    40
Amendment in the nature of a substitute to H.R. 1838, offered by 
  Mr. Gilman and Mr. Gejdenson...................................    53



             H.R. 1838, THE TAIWAN SECURITY ENHANCEMENT ACT

                              ----------                              


                       Tuesday, October 26, 1999

                  House of Representatives,
              Committee on International Relations,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
will come to order. Will Members please take their seats.
    The Committee on International Relations meets today in 
open session, pursuant to notice, to take up H.R. 1838, the 
Taiwan Security Enhancement Act.
    This bill was introduced on May 18, by the distinguished 
Majority Whip, the gentleman from Texas, Mr. DeLay, and a 
bipartisan group of Members, including myself.
    It was referred by the Speaker to the Committee on 
International Relations and, in addition, to the Committee on 
Armed Services, for a period to be determined subsequently by 
the Speaker, in each case for consideration of such provisions 
as fall within the jurisdiction of the committee concerned.
    The Chair lays the bill before the Committee.
    The clerk will report the title of the bill.
    Ms. Bloomer. H.R. 1838, a bill to assist in the enhancement 
of the security of Taiwan, and for other purposes.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, this Act may be cited as the----
    Chairman Gilman. Without objection, the bill is considered 
as having been read.
    [The information referred to appears in the appendix.]
    Chairman Gilman. I have an amendment in the nature of a 
substitute at the desk. The clerk will report the amendment in 
the nature of a substitute.
    Ms. Bloomer. Amendment in the Nature of a Substitute 
offered by Mr. Gilman for himself and Mr. Gejdenson. Strike all 
after the enacting clause and insert the following:
    Chairman Gilman. I ask unanimous consent that the amendment 
in the nature of a substitute be considered as having been read 
and is open to amendment at any time.
    Without objection, so ordered.
    [The information referred to appears in the appendix.]
    Chairman Gilman. I will now recognize myself to speak 
briefly to the amendment in the nature of a substitute.
    I am pleased to bring this measure before the Committee 
today for consideration. I want to thank the Majority Whip, Mr. 
DeLay of Texas, for introducing this legislation. I am also 
appreciative of the cooperation between the staffs of the 
Majority and the Minority and their work. We want to thank the 
Senate Committee staff, particularly Mr. Doran on Foreign 
Relations for his hard work in crafting this bill.
     Along with Members of this body, I am increasingly 
concerned about China's security policy and military 
modernization efforts, including its burgeoning missile 
deployment opposite Taiwan, the purchase of advanced Russian 
fighters and submarines, Beijing's outright refusal to renounce 
the use of force against Taiwan, its overwrought saber 
rattling, and the deleterious effect all of this has had on 
regional stability.
    We are also equally troubled by the Clinton 
Administration's handling of Taiwan policy in general, 
including the pressure it has unwisely placed on Taipei to come 
to interim agreements with the PRC regarding unification; its 
unwillingness to sell some defensive weapons systems to Taiwan, 
irrespective of China's military advances; its talk of a 
strategic partnership with Beijing, the Three No's; and the 
consequences these misguided actions have for peace and 
stability in the region.
    The United States should, without question, continue to 
steadfastly meet its security commitments to Taipei as 
stipulated in the 1979 Taiwan Relations Act. This means 
assisting Taiwan in maintaining the balance of power across the 
Taiwan Strait in the face of the PRC's unprecedented military 
buildup. A failure to meet Taiwan's legitimate defense needs 
will make China's military dominance of the Taiwan Strait a 
reality. This would not be a welcome development in that part 
of the world.
    A failure to provide for Taiwan's legitimate defense needs 
could lead to Beijing's misunderstanding of American interests, 
foster perceptions of Taiwanese defense vulnerability, increase 
the likelihood of Chinese miscalculation, and could ultimately 
lead to a conflict with our Nation over its adventurism.
    Ensuring and enhancing Taiwan's ability to defend itself 
increases the prospects for continued peace and stability in 
Northeast Asia and also supports our national interests.
    The Congress, in the absence of decisive Administration 
action, must act to make clear to Beijing that our Nation will 
continue its long-standing commitment to a peaceful resolution 
of the Taiwan issue. Accordingly, I support this legislation's 
efforts to enhance Taiwan's self-defense capability.
    I am proud to be a cosponsor of the legislation. It has an 
impressive array of cosponsors on both sides of the aisle, and 
we look forward to bringing it to the Floor for consideration 
at an early date.
    Those of you who have been following this bill know that 
the sponsors have been working diligently to accommodate the 
various concerns that have been expressed. Over a period of 
months, we have worked with Mr. Bereuter, Mr. Cox, and other 
independent Members to refine the language in the bill.
    In addition, we have worked with Mr. Gejdenson and his 
staff to come up with the amendment in the nature of a 
substitute that is now before the Members of this Committee.
    Mr. Gejdenson and I are pleased to offer the amendment 
which we believe represents a consensus position within our 
Committee regarding the future direction of U.S. security 
relations with Taiwan. The amendment preserves the essence of 
the bill as introduced. It no longer refers to sales of any 
specific weapons systems to Taiwan, but in other respects it is 
at least as strong, or stronger, than the bill as initially 
introduced.
    It continues to mandate that extra positions be reserved 
for Taiwanese officers at U.S. military schools, that secure 
direct communications be established between our Nation and 
Taiwanese militaries for coordination in the event of a crisis, 
and that the Congress be kept fully and currently informed of 
the status of arms sales requests from Taiwan.
    Mr. Gejdenson and I believe the amendment in the nature of 
a substitute will meaningfully enhance the security of both our 
Nation and of Taiwan. We strongly urge its adoption.
    Do any Members seek recognition?
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. At the conclusion 
of my remarks, I am going to request that Stanley Roth, the 
Assistant Secretary, be given an opportunity, if it is OK with 
the Chairman, to express his concerns.
    Mr. Bereuter. Would the gentleman yield?
    Mr. Gejdenson. I will yield.
    Mr. Bereuter. I wonder if I might be allowed, as a 
Subcommittee Chairman, to make my remarks before Mr. Roth comes 
forward.
    Mr. Gejdenson. Without any doubt.
    Chairman Gilman. Without objection.
    Mr. Bereuter. Thank you.
    Mr. Gejdenson. Obviously, any other Member I think who 
would want to speak first, and then we would hear from the 
Administration.
    I disagree with the Administration's conclusion, but I 
think they ought to have a chance to be heard. It is clear to 
me that, as in many parts of the world, there is a constant 
tension between democratic forces and nondemocratic forces. In 
my time in Congress, there was a time when Taiwan's 
representatives and people concerned about Taiwan could come to 
me and I would feel no great need to speak out on their behalf, 
because for a long time, Taiwan did not have democratic 
institutions. But today, on the island of Taiwan, we have a 
government that is a full-fledged democracy with opposition, 
with opposition press, and it is confronted by the largest 
totalitarian state in the world. I believe that Americans ought 
to stand up very squarely in favor of these democratic 
institutions.
    Now, I understand the Administration's concerns that 
somehow this is going to enrage the Mainland and they will do 
something foolish. I think it would be a very foolish mistake 
for the Mainland to recognize our commitment to democratic 
institutions and our opposition to tyranny as an excuse for 
some kind of military adventurism.
    The Congress of the United States, I think, reflects the 
feeling of the American people that Taiwan has gone from being 
a nondemocratic nation to a democratic nation, to a nation that 
has free and open debates, and that ought to be the model for 
the Mainland, and not the reverse. It ought not be Taiwan that 
has to mimic the kind of tyranny that exists today, everyday, 
on the Mainland of China.
    I believe the work the Chairman and others on this 
Committee have done on this resolution brings forward a 
balanced resolution that is not provocative but clearly states 
America's concern for the democratic people and the democratic 
institutions on the island of Taiwan. If the Mainland wants to 
have that kind of support in Congress, it seems to me that they 
can begin a process of establishing at least a minimum respect 
for human life, to stop trafficking in organs of murdered 
prisoners, and to start developing the democratic institutions 
that are clearly the direction for the planet.
    So I support the legislation and commend the Chairman for 
his efforts.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I have some remarks that I hope my colleagues will follow, 
and that I hope, presumptuously, might provide some 
enlightenment here.
    I think in my years here, except for legislation I have 
introduced, I have not spent more time on any other bill than 
on this legislation. I think that what we are doing here today 
is very important. I think it is the most significant action, 
in the foreign policy sense, that this Committee will take this 
year.
    I think that one should not underestimate the sensitivity 
of U.S.-China relations when it comes to Taiwan, or the 
complexity and sensitivity of the relationship between the PRC 
and Taiwan. Those relationships, in combination, are very 
complex and problematic.
    I came to Congress in 1979. A couple of months later, we 
passed the Taiwan Relations Act. I was not a Member of this 
Committee in my first or second term, but I do remember, of 
course, that there was a Democratic majority in both Houses of 
Congress and that the Carter Administration was in power. Yet 
Congress, on a bipartisan basis, decided it was important to 
enunciate its policy with respect to Taiwan. We had, as a 
result, in early 1979, the passage of the Taiwan Relations Act 
over the objections of the Carter Administration.
    There is an extraordinary degree of support in this country 
for Taiwan. We have great respect and admiration for the 
advances that they have made in democracy and, of course, for 
their economic development as well. But we are particularly 
impressed with the changes that have taken place with regard to 
democracy in that country. It is the American policy that we 
expect any reunification of Taiwan with the PRC only by 
peaceable means. That is enunciated clearly, of course, in the 
Taiwan Relations Act.
    There is, I would say--and we need to be candid about 
this--a high degree of scepticism about the Clinton 
Administration and their handling of Taiwanese issues. We are 
probably at a low point in our relationship with the People's 
Republic of China in recent years. After spending a lot of time 
with Mr. Cox and Mr. DeLay, and some time with the Chairman, 
certainly a lot with his staff, I feel that the substitute 
offered by the Chairman and the Ranking Member answers most of 
the concerns that I had enunciated--not all of them, but most 
of them. I want to review some of those concerns to tell you 
why I think this is significant.
    I thought that the original legislation was flawed in many 
ways. In fact, it was factually inappropriate at times. If 
Members have availed themselves of some of the most highly 
classified briefing materials, they would understand that 
certain aspects of the previous bill were not appropriate and, 
in fact, would create additional problems.
    We have had a security agreement with Taiwan since 1954 
that was, in large part, mostly reversed with the passage of 
the Taiwan Relations Act. There was a legitimate concern on the 
part of the Administration that the Chinese would think that we 
were, and in fact we were, trying to reimplement the Security 
Agreement of 1954. I think that we have made revisions, through 
the Chairman's substitute, which incorporate a lot of my 
effort, and the efforts of other Members as well, to eliminate 
reasonable attitudes that we are returning to the 1954 
Securities Act. The findings sections, in my judgment, are 
factual now.
    I want to call Members' attention specifically to pages 5 
and 6, where we have subsections 15, 16, and 17. I admit a 
heavy hand in introducing these arrangements and these 
findings. They were not a part of the original act, although 
inherently they were a part of some of them.
    I want to call my colleagues' attention to something Mr. 
Hastings and I witnessed when we were members of Speaker 
Gingrich's visit to the East Asia region. It was his first trip 
to that region and his first trip as Speaker. It was a 
bipartisan group, and you could, for example, ask Mr. Hastings, 
or the senior Democrat, Mr. Dingell, about what I am going to 
say. But I think that, despite all of the criticisms that some 
of my colleagues have had with the Speaker, it was generally 
thought that his visit to Asia was quite a success, that he 
said some things that needed to be said, and that they were 
appropriate in clarifying American policy.
    For example, when we met with President Jiang Zemin, the 
Speaker said, based upon a resolution that the House had 
passed, that if China attacks Taiwan, the U.S. will come to 
Taiwan's defense.
    Now, we have been accustomed to receiving a tirade on 
Taiwan from the PRC's highest officials for years, and we 
expected an hour and a half tirade there. However, President 
Jiang simply said, ``We don't intend to attack,'' and we went 
on to other things.
    Then when we visited Taipei a few days later, the Speaker 
said to President Lee that Taiwan should understand that the 
U.S. expects Taiwan not to take provocative actions for Taiwan 
domestic reasons. The message was very clear at that time. That 
was an appropriate kind of clarity, eliminating some ambiguity 
on where the Congress of the United States at least, stood.
    You will see in section 15, subsection 15 on page 5, it 
says, and I am going to read this just so it is brought clearly 
to your attention, ``It is in the national interest of the 
United States to eliminate ambiguity and convey with clarity 
continued United States support for Taiwan, its people, and 
their ability to maintain their democracy free from coercion 
and their society free from the use of force against them. Lack 
of clarity could lead to unnecessary misunderstandings or 
confrontations between the United States and the People's 
Republic of China, with great consequences for the security of 
the Western Pacific region.''
    Then, in section 16 it does go into the possible 
consequences of an ambiguity and the lack of clarity and 
suggests that that was one of the reasons, perhaps the primary 
reason, why the PRC, after President Lee's visit to the United 
States, conducted military exercises, including live fire 
exercises and two missile shots off the coast of Taipei.
    Section 17 suggests where the Administration had made a 
significant error in judging the attitude of the American 
people and the Congress about our view that a person should be 
able to return for honors to their alma mater. The Chinese, 
given the assurance that President Lee would not be given a 
visa, found that the Administration changed the view and issued 
the visa, bringing about a confrontation that was dangerous.
    I want to call your attention also to two of the areas 
where originally it was said, I think with cause, that we were 
returning to the 1954 mutual security agreement. Changes have 
been made in that area, and I think have answered those 
concerns wholly or largely.
    Section 3, pages 6 and 7, relates to the training of 
Taiwanese military officers. This is substantially different 
from the original version, and I do want to call to my 
colleagues' attention the fact that Taiwan receives as large an 
allocation of slots in our military schools as any of our 
allies. When we call for additional positions, we say ``make 
every effort to reserve additional positions.'' I do not agree 
with that. I thought it should have been worded slightly 
differently.
    We can expect Israel, Greece, and other countries to come 
and say that they should have their quotas enlarged. All of 
that will come out of American personnel who are not receiving 
that training at West Point, Annapolis, or the Air Force 
Academy. So I do point that out to you. But we have changed 
this substantially. We do not talk about exchanges between 
general officers and other similar issues in this substitute 
version by the Chairman and the Ranking Member.
    The other section that was particularly problematic and 
suggested we might be returning to the 1954 security agreement 
is related to communications. In section 5(d) on page 10, this 
has been modified, but it does, in fact, include, and will 
cause concern there is no doubt about it, an assurance 
certifying to the four appropriate committees in Congress that 
direct, secure communication exists between the armed forces of 
the United States and armed forces of Taiwan. That is not 
exactly how I would have written it, but it is a substantial 
change and improvement in that respect.
    Finally, I wanted to say that one of my concerns, and the 
reason I have been, frankly, doing everything I could to delay 
this legislation until we could make amendments, modifications 
such as this substitute, is that I did not want to give the 
Chinese an excuse for failing to reach an agreement with the 
United States on WTO accession. Nor, frankly, I would say to my 
Democratic colleagues, did I want to give the President an 
excuse saying that Republicans were responsible by pushing this 
legislation, and, therefore, the President failed to get a WTO 
accession agreement.
    The President should have agreed to Premier Zhu Rongji's 
commercially viable offer in April. He ignored the advice of 
his substantive advisors and went with his political advisors, 
allegedly because of concerns that would be brought to the 
attention and focus and front line again on Chinese espionage 
and on alleged contributions from Chinese entities to his 
presidential campaign. I believe that Congress would have given 
permanent NTR after considerable debate, and continue to 
believe that we should. But I think now it is clear that we are 
not going to have a WTO accession agreement between the United 
States and China, I say regretfully, before November 30, when 
the new multilateral trade round begins in Seattle.
    Since Congress is about to adjourn, if we are going to take 
action on the Taiwan Security Enhancement Act, we have delayed 
it to the point where the excuse by the Administration that 
this action by us today, or on the House Floor later, is 
responsible for the failure of the Chinese and the U.S. to get 
together on a WTO accession agreement won't wash.
    I thank my colleagues for listening, and I appreciate the 
extra time, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter, and you got a 
little extra time because you did not have the opportunity to 
take it up in Subcommittee.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    I have a great deal of difficulty with this piece of 
legislation.
    Let me stipulate at the outset that I welcome some of the 
changes which the authors have incorporated, because they make 
specific provisions of the proposed legislation somewhat less 
objectionable. But I still believe that this is a piece of 
legislation which is unneeded, counterproductive, and while it 
does have some Democratic support, I don't think it is quite 
accurate to refer to it as a bipartisan piece of legislation. 
As the Ranking Democrat on the Asia Subcommittee, I have chosen 
not to support the legislation, and I would like to explain 
why.
    The fundamental underlying assumption of this legislation 
is that the Taiwan Relations Act is not working, it needs to be 
fixed, and this is the way to fix it. Precisely the opposite is 
true. The Taiwan Relations Act has worked extremely well for 20 
years, it is working well today, and I believe that this 
legislation was fundamentally crafted for partisan political 
reasons and not because the objective conditions surrounding 
our relations with Taiwan, China, or any other area in Asia 
required it.
    Let me be specific. Several of my colleagues have spoken 
with high praise concerning the elimination of ``ambiguity.'' I 
trust I need not remind anyone that the use of creative 
ambiguity is as old as diplomacy itself, and to eliminate 
ambiguity is not a virtue. To eliminate ambiguity creates 
rigidities which the very fluid nature of this issue clearly 
does not call for.
    Now, I probably have developed, over the last 2 decades, 
the reputation of being one of Taiwan's strongest supporters in 
this body, and I am very proud to have that reputation. I am 
somewhat amused that the amended proposal and my colleague's 
observations--Mr. Bereuter's observations--refer to legislation 
that I introduced in this body on page 6, point 17.
    This is what the improved version says: ``An earlier 
consequence of such ambiguity and lack of clarity was the 
expressed surprise by the People's Republic of China that 
Congress and the American people fully supported President Lee 
Teng-hui's private visit to his alma mater, Cornell University, 
necessitating House Concurrent Resolution 53, approved by the 
House of Representatives by a vote of 390-to-0 on May 2, 1995, 
and by the Senate by a vote of 97-to-1 on May 19, 1995, which 
stated such support explicitly.''
    Mr. Chairman, I would appreciate you turning off the light. 
If the Chairman of the Asia Subcommittee could speak without 
time limit, I wish to do so as well.
    Chairman Gilman. Mr. Lantos, we gave extra time to Mr. 
Bereuter because his Subcommittee----
    Mr. Ackerman. Mr. Speaker, parliamentary inquiry.
    Chairman Gilman. Will the gentleman withhold?
    The Subcommittee did not have an opportunity to take it 
before the Subcommittee. We have quite a bit of discussion on 
this this morning, and I will extend to you an extra minute. 
Please try to be brief.
    Mr. Lantos. Mr. Chairman, I want to remind you that the--.
    Mr. Bereuter. Mr. Chairman.
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. I would ask unanimous consent to give Mr. 
Lantos an extra 2 minutes.
    Mr. Ackerman. Mr. Chairman, parliamentary inquiry.
    Chairman Gilman. The gentleman has a parliamentary inquiry. 
Please state it.
    Mr. Ackerman. My parliamentary inquiry is, should not the 
Ranking Member of that same Subcommittee through which this 
legislation escaped without notice also be granted the same 
amount of time as the Republican nonpartisan Chairman?
    Chairman Gilman. It is not a proper parliamentary inquiry. 
I will be pleased to extend additional time to the gentleman 
from California, Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    When I read on the front page of the New York Times that 
the Administration was denying the President of Taiwan a visit 
to his alma mater, I went through the roof, because I do not 
view this country as a place where a distinguished leader of an 
important country who received his Ph.D. at Cornell and is 
reinvited to Cornell to receive an honorary doctorate should 
not be allowed to enter the United States and visit his alma 
mater. I was delighted to see that my colleagues, by a vote of 
390-to-0, agreed with my position. This was very helpful, 
because it pointed out to the Chinese that the Administration 
has limits as to what it can agree to, and the Congress has a 
voice in determining our policy vis-a-vis Taiwan, China, or any 
other place.
    Now, I have no doubt in my mind that the genesis of this 
legislation is politically designed to embarrass the 
Administration, which I don't think is an objective which is in 
the national interest. If I felt that there would be a need for 
fixing the Taiwan Relations Act, I would be happy to support 
provisions to strengthen it. I believe that this legislation 
makes the Taiwan Relations Act less effective. It mandates 
making private military discussions between Taiwan and 
ourselves public. It mandates reports that are unneeded, 
redundant, unnecessary, and I believe it dramatically 
circumscribes the flexibility needed by this, or any future 
Administration, in conducting our foreign policy in this 
unbelievably delicate arena of U.S.-China-Taiwan relations.
    My hope, Mr. Chairman--and I realize I may be on the 
nonprevailing side--my hope is that, both here and on the 
Floor, we will have a full discussion and debate on this issue.
    My commitment to Taiwan's security is unshakeable. We have 
made that clear. We mobilized the fleet to make that clear, and 
that mobilization had my full support. But I believe that we 
are in danger of expressing positions which undermine our 
ability to conduct U.S. foreign policy. This piece of 
legislation does not stand by itself. We are not paying our 
United Nations' dues. We are attempting to undo the 
Antiballistic Missile Treaty. We are now creating an 
unnecessary new problem with the Chinese. We have plenty of 
problems with the Chinese, many of them, most of them of their 
own making. But I believe that this piece of legislation is 
ill-advised, unneeded, and politically motivated, and I shall 
vote against it.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Salmon.
    Mr. Salmon. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak.
    First of all, I would like to congratulate the Chairman of 
the Subcommittee for working diligently to improve the language 
in this piece of legislation. But I would also like to 
associate myself with the comments of the gentleman from 
California, Mr. Lantos.
    I think that I, for one, agree with your statement that 
when it comes to Taiwan's security your credentials are 
impeccable and nobody would ever question your commitment to 
peace in that region.
    I also have to wonder aloud, though, at the rationale for 
this piece of legislation at this time. I think that, while it 
is improved, I agree with Mr. Lantos that I believe that the 
upshot of passage of this legislation would actually be 
counterproductive, and I have been instructed by various 
Members of the Committee staff that Taiwan's TECRO has not 
asked for this legislation, so I have to wonder what the 
motives behind the legislation at this particular time are as 
well.
    Mr. Lantos, you have your speculation, I hope that is not 
the case, but I cannot understand the rationale at this given 
point in time. When the relationship in that region, with the 
bilateral relationship with China at an all-time low, I think 
that we have a responsibility to do everything that we can, 
first, to try to bolster that relationship, not giving away 
anything. I think that my support of Taiwan--every time that we 
have had a vote supporting Taiwan's defense, our alliance with 
Taiwan, in the 5 years that I have been here, I have been there 
every single time. On your measure to let Lee Teng-Hui visit 
his alma mater, I was there. I have been there every single 
time. I was a missionary in Taiwan from 1977 to 1979. I love 
those people. This is not about support or no support of 
Taiwan. This is about common sense, and this is the wrong time 
for this piece of legislation.
    I really believe that the Administration will raise some 
valid points. This comes at a time when I think we could push 
things over the edge. I have been in repeated conversations 
with TECRO, as well as the Chinese embassy. They have all 
assured me that there is no threat of China attacking Taiwan 
unless Taiwan out and out votes for independence, and I do not 
think that is going to happen. But I will go back and say that 
I think that, as Mr. Bereuter mentioned with the Speaker's 
trip, we have to be frank with both sides.
    When I went to China 6 months ago to visit Tibet and to 
work on issues regarding His Holiness the Dalai Lama and Jiang 
Zemin, to try to get the two to talk and work toward a peaceful 
resolution there, the issue came up of support for Taiwan. I 
told the Minister of Foreign Affairs in China that our support 
of Taiwan is unequivocal. If they attack Taiwan, we would be 
their defender.
    I think that the Taiwan Relations Act is clear. It is not 
necessary to change it at this time. It has worked well for the 
last 20 years, and I think that this is counterproductive. But 
at the same time, while we tell our friends in China that if 
they attack Taiwan we are there to defend, we also need to be 
plain-spoken with the President of Taiwan and tell him to not 
make irresponsible comments and talk about a state-to-state 
relationship. That does not foster a positive trilateral 
relationship, so we have to be forthright with both sides.
    I congratulate you, Mr. Lantos. I thought I was going to be 
a pariah here today. I appreciate the fact that I think like 
you, because I have immense respect for your command of foreign 
policy. I intend also to vote against this bill, not because I 
don't support Taiwan, but because I do.
    Thank you.
    Chairman Gilman. Mr. Brown.
    Mr. Brown. Mr. Chairman, thank you.
    While I am pleased this Committee is considering 
legislation to better enable the people of Taiwan to defend 
themselves from outside aggression, I think we all recognize 
the long-term solution to solving this problem is not whether 
we give them more bombs or more tanks or more missiles. After 
all, Taiwan has the best security guarantee in the world, that 
being the U.S. 7th fleet, our hoard of intercontinental 
bombers, the 7,000 or so nuclear warheads at our disposal, and, 
as the news events of the last day have shown, the assistance 
of a $280 billion U.S. defense budget.
    Because, regardless of how many times the White House tells 
China's dictators it respects the so-called ``One China'' 
policy, the realities of the Taiwan Relations Act, the law of 
the land, require us to come to Taiwan's aid if it is attacked 
by China. So, no matter how many threats the PRC makes, no 
matter how many missiles it shoots across the Straits of 
Taiwan, or no matter how many ships or planes it buys from 
Russia, the simple fact is that a Chinese attack against Taiwan 
would be, under U.S. law, the same as attacking the United 
States.
    But if we keep telling China's dictators that we support 
their claim to Taiwan, if we keep telling them it is OK not to 
renounce using force against Taiwan, then we are creating a 
monster.
    Mr. Chairman, I support H.R. 1838. However, while I 
appreciate the effort that you, Ranking Member Gejdenson, and 
Mr. Bereuter have put into this legislation, I think we know 
that the best way to help Taiwan is not by reaffirming our 
commitment to its security or instructing the White House to 
give it missiles and ships. If we really want to guarantee the 
long-term health and security of Taiwan, and the thousands of 
our servicemen and servicewomen that are serving in East Asia, 
we need, then, to recognize the obvious, and quit alienating 
Taiwan from the international community simply because China 
says it is not a state.
    Taiwan's 22 million people have built a thriving, 
prosperous democracy that respects the rule of law and the 
human and political freedoms of its people. Its economy, as we 
know, is one of the most advanced in the world, and by every 
measure it should qualify that nation for membership in the 
World Trade Organization, the World Health Organization, and a 
variety of other international organizations.
    Despite all of Taiwan's qualifications for statehood, and 
despite the reality that its people do not want to live under 
the autocratic rule of China's Communist masters, we still 
cannot bring ourselves to face the obvious. Not because we do 
not think that Taiwan deserves to be a state, but because in 
this institution and in the Administration we too often cater 
to a regime that shows nothing but contempt for internationally 
recognized human political rights and for the rule of law. Many 
of the same Members of Congress, including the prime sponsor of 
this bill, who speak out strongly for arms to Taiwan, turn 
around and lead the charge and twist the arms of Members, then 
turn around and lead the charge and twist the arms of Members 
to support Most Favored Nation status for China.
    With that, Mr. Chairman, I urge my colleagues to support 
H.R. 1838, but I also urge that we throw the One China policy 
in the scrap heap of Cold War ideals, and quit affording 
China's dictators more rights than we do our sister democracy 
in Taiwan.
    Chairman Gilman. Thank you, Mr. Brown.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I rise in strong support of the Taiwan Security Enhancement 
Act. I disagree, and strongly disagree, with my good friend, 
Mr. Lantos, and I find his analysis to be serious and not at 
all delusional.
    So, with that said, Mr. Chairman, the Taiwan Security 
Enhancement Act sends a necessary signal to Beijing, and to the 
Executive Branch, that the Congress supports the Republic of 
China and Taiwan. Indeed, if those in the Administration 
responsible for implementing the original Taiwan Relations Act 
had performed their responsibilities in good faith, the Taiwan 
Security Enhancement Act would not be necessary. Unfortunately, 
the Executive Branch's major concern in dealing with Taiwan's 
security requirements has been, and seems to be, keeping China 
happy, even if that means denying Taipei items that are deemed, 
even by our own military, to be necessary for Taiwan's 
security, even though, as we know, the Taiwan Relations Act 
makes that perfectly acceptable, and it is part of the 
agreement to provide defensive weapons systems to Taiwan.
    The PRC now refuses to renounce the use of force, and in 
recent years has built up its military forces, particularly its 
ballistic missiles aimed at Taiwan. It is the Communist Chinese 
who are threatening military action and, thus, threatening 
world peace. We need to restate and reconfirm our determination 
to see that Taiwan has what it legitimately needs as an 
adequate defense and, thus, an adequate deterrent.
    We ask for trouble when America is ambiguous. If we are 
ambiguous on this point, we send a wrong message to 
decisionmakers of a very powerful country who may be hostile to 
our own interests, and are certainly hostile to what we view as 
what is necessary for peace in the Pacific. Unless Taiwan has a 
credible self defense capability, as envisioned by the Taiwan 
Relations Act, we are promoting instability, and increasing the 
chances that Beijing will employ force against Taiwan which 
will drag in the United States to a conflict that we do not 
need to have, and we do not want to have.
    This is why I support the Gilman amendment to this bill. 
There are several provisions in this bill that address our lack 
of contact with Taiwan's military. Although mechanisms exist 
for making arms sales and providing Taiwan intelligence within 
the framework of our unofficial relationship, there has never 
been a provision for assisting Taiwan's military on operational 
matters and field training exercises. The Department of State 
and others in the Administration forbid such contact. This bill 
seeks to remedy that shortcoming.
    The same is true for direct communication links. Direct 
communication between Taiwan and CINCPAC is not a political 
question but a military necessity. This bill will open up those 
vital communications links that could save American lives in 
the future.
    For example, this bill, on page 9, opens up contact with 
``senior'' American officers with their Taiwanese counterparts. 
Today, our generals and admirals cannot work together with the 
Taiwanese, with their Taiwanese counterparts, to develop plans 
which will serve as a deterrent to Chinese Communist military 
action. They should be developing plans, because that deterrent 
is important to save American lives and maintain peace.
    Much the same is true in the area of missile defense. The 
leaders in Beijing are particularly agitated by the idea that 
we might provide Taiwan's military with information on military 
launches headed in their direction. Well, why shouldn't the 
Taiwan military get this data about incoming missiles? For 
Pete's sake, if the Chinese were sending missiles in that 
direction, they have already broken the peace, and why can't 
the United States play a role in providing this vital 
information, thus ensuring that there is a deterrent to that 
type of action on the part of China? The only answer that the 
Administration can give us is that they are afraid that 
Communist China will be upset if we make that our policy.
    America needs to clearly state our positions and our 
commitments concerning the Republic of China on Taiwan, and 
what we intend to do, or not to do, in the Pacific. The Taiwan 
Security Enhancement Act does just that, and is a reminder to 
our own officials and to Beijing that U.S. policy, as 
determined by the Taiwan Relations Act, is to be crafted by 
both the Administration and the Congress. Congress needs to 
play a role and not just leave this up to the Executive Branch.
    I urge my colleagues to support the bill, which will push 
American policy toward a more realistic stance to address most 
of the serious challenges we confront in the Pacific today, or 
the most serious challenge, I should say, that we confront in 
the Pacific, and perhaps the world.
    [The statement of Mr. Rohrabacher appears in the appendix.]
    Chairman Gilman. Thank you, Mr. Rohrabacher. The 
gentleman's time has expired.
    Mr. Berman.
    Mr. Berman. Thank you very much, Mr. Chairman. I do want to 
commend you and Mr. Gejdenson, and Mr. Bereuter, for your work 
on the substitute. I think you have put together a better piece 
of legislation.
    But I do want to take some objection to your opening 
statement, because as you lauded the bipartisan consensus that 
exists behind this revised piece of legislation, you made an 
attack on the Administration that I don't think was well-
founded, in point of fact, and could have been straight from 
Republican Congressional Campaign Committee talking points, to 
essentially try and set up a political issue for the next 
election campaign. That is a serious charge, but I say it with 
some consideration and with the belief that it is really true.
    We can't put together these bipartisan initiatives and then 
watch people try to use those initiatives to launch into 
partisan-based attacks. It doesn't augur well for the future of 
bipartisan work on foreign policy.
    Mr. Chairman, when you say in your opening statement that 
the Administration forced and pushed Taiwan to reach some 
specific agreement with China, what is the specific agreement? 
What fundamental interest of Taiwan's did the Administration 
push Taiwan to agree to with the Chinese? If you are going to 
make the allegation, then justify it with some specificity. It 
is a very serious charge. We are owed, the public is owed, the 
Administration is owed, an explanation of what the thinking is.
    Chairman Gilman. Will the gentleman yield?
    You will recall in my statement I said it is pressure that 
was unwisely placed on Taipei with regard to unification, 
unwillingness to sell some defensive weapons systems to Taiwan, 
irrespective of China's military advances. It was talk of a 
strategic partnership with Beijing, and the Three No's, and the 
consequences.
    Mr. Berman. Mr. Chairman, you have left out a part of your 
statement. You said in your statement, put undue pressure on 
the Taiwanese to reach agreements, to reach certain agreements 
with the Chinese. I want to know what agreements we asked them 
to----
    Chairman Gilman. If the gentleman will yield, the language 
that I used was the Administration's handling of Taiwan policy 
in general, including the pressure it has unwisely placed on 
Taipei to come to interim agreements.
    Mr. Berman. Yes. Which agreements?
    Chairman Gilman. Then I went on to indicate some of those 
agreements.
    Mr. Berman. No, you didn't. You went on to indicate other 
issues with Taiwan policy.
    But my point is, while there is no doubt that this 
Administration encouraged strong cross-straits dialogue and the 
effort to achieve agreements that Taiwan would consider to be 
in their interest, I am unaware of any specific agreement or 
concession that this Administration asked Taiwan to make in the 
context of negotiating agreements with the Chinese.
    In a way, the gentleman from Ohio raised the right issue. 
This resolution seeks to reaffirm that which I think most 
people know, and the Speaker articulated very clearly back in 
1996 in Beijing, that the United States is prepared to support 
Taiwan should it come under attack.
    What the gentleman from Ohio seeks to do is to 
fundamentally challenge the One China policy. If that is the 
goal here, then why not say that is the goal, instead of making 
into a contentious partisan issue that which, I think, there is 
a broad consensus to agree with.
    I am going to read something the Administration probably 
would not like to hear, but it is from the L.A. Times, dated 
July 24, 1999, and I have never heard any disassociation of it: 
``Over the past 3 years,'' Jim Mann writes in this issue of the 
L.A. Times, ``the Clinton Administration has quietly forged an 
extensive military relationship with Taiwan, authorizing the 
Pentagon to conduct the kind of strategic dialogue with 
Taiwan's armed forces that had not been permitted by any 
previous Administration since 1979''--and if I recall, that is 
two Reagan Administrations and one Bush Administration--
``according to U.S. and Taiwanese sources.''
    The fact that some things aren't done with all of the 
public fanfare that they might be done with, all U.S. policy 
doesn't have to be Rohrabacher in a China shop.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Berman. I would be happy to yield.
    Mr. Rohrabacher. I think that this is an excellent point. 
Again, even though I disagree with it, it is not delusional. 
Let me just say to my good friend, we have a difference in 
approach of how to maintain the peace.
    Mr. Berman. I know.
    Mr. Rohrabacher. In fact, what you just stated, I think, is 
a formula for war with Communist China. Here we are 
strengthening our ties below the visual level, while giving a 
different impression to the Communist Chinese decisionmakers in 
Beijing. There is no excuse for that type of policy. That 
leaves them with the wrong impression of where we stand, and 
could lead to conflict, couldn't it?
    Mr. Berman. The fact is, though, as Chairman Bereuter 
mentioned, as has been clear from press statements, as is clear 
in our response to the missile crisis back in 1996, to that 
which Mr. Lantos talked about, the U.S. interest in not letting 
China threaten Taiwan's existence, I think, has been pretty 
clear, and I don't think----
    Mr. Rohrabacher. But what you just described is--.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Berman. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Campbell.
    Mr. Campbell. Thanks, Mr. Chairman.
    I have a few words, but before I do--so don't slam the 
gavel down when I am done--but I have a parliamentary inquiry 
to know the following: What I am tending toward is that, if I 
have to vote on this, I will vote yes, but that I would rather 
we not bring it up. So I am going to ask you and your counsel, 
what is the correct parliamentary procedure for me to make a 
motion, and at what time, to what we would say is move to table 
or to postpone? Could I yield to the Chairman to inform me how 
I would make such a motion and at what time?
    Chairman Gilman. We will take that under advisement, and we 
will discuss it with our Parliamentarian.
    Mr. Campbell. All right. Let me reclaim my time, and I will 
try to get counsel to find out how to do that.
    Here is my take. I think it is essential that we be clear 
that if Mainland China attacks Taiwan, we defend Taiwan. I 
think there is an element of uncertainty on that point right 
now in the following setting: If the attack comes following a 
unilateral declaration of independence by Taiwan, it is 
ambiguous, by my lights, whether the United States defends 
Taiwan. Incidentally, I base that on the talks that we had, Mr. 
Chairman, when I was privileged to travel with you to Asia this 
summer, and that is the impression I got from talking with 
leaders of other states in the region.
    I would like to make that very clear, that whatever the 
premise for an attack by Mainland China on Taiwan, we defend 
Taiwan, even if that is in response to unilateral declaration.
    Mr. Delahunt. Would the gentleman yield for just a second?
    Mr. Campbell. I will be happy to yield, if you make it very 
short.
    Mr. Delahunt. I think that is a very good question, and I 
think we should be very clear, because this is of such grave 
consequence. The language on page 6, lines 2, 3, and 4, 
``should assist in defending them against invasion, missile 
attack, or blockade----
    Mr. Campbell. I thank the gentleman.
    Mr. Delahunt [continuing]. By the People's Republic of 
China'', and that causes me concern.
    Mr. Campbell. Reclaiming my time, I thank the gentleman for 
his helpful intervention.
    I want to say this to my dear friend--San Mateo County, and 
San Francisco, of course, and the City and County of San 
Francisco--that once in a while ambiguity is hurtful. I think 
of Dean Acheson and April Glaspy, right? One from each party. I 
don't know what party they are from, but each from different 
Administrations. The comment that maybe Korea was outside of 
the protective zone of the United States may have given 
incentive to North Korea, the comment that the Iraq-Kuwait 
issue was a border issue, and may have given incentive to 
Saddam Hussein, I don't know, and there is debate over that. So 
if we make it clear, any attack on Taiwan by Mainland China we 
will defend, that helps, that helps. As my good friend from 
Massachusetts says, or blockade, which is an act of war, a 
blockade is an act of war.
    But I am really troubled that we bring it up right here and 
now. There is no area in the world I can think of, maybe North 
Korea would be the only other one, where there is a potential 
of a shooting war greater than this. Are we wise--are we wise 
to weigh in right now?
    So my feeling is no. If I must vote, I vote yes, because of 
the clarity that the gentleman from Massachusetts referred to, 
because of my sense that if this goes down, it will send a 
worse message. If this goes down, it might send a message that 
we are not standing with Taiwan. But I am not yet convinced 
that we need to bring this up, and so at the right time I would 
like to make whatever the appropriate motion is to table or to 
postpone.
    I thank the Chairman. I invite his advising me of that 
right moment.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Lantos. Mr. Chairman, parliamentary inquiry. May I 
inquire as to what the Parliamentarian's decision is as to the 
appropriateness of Mr. Campbell's tabling motion?
    Chairman Gilman. We are exploring that with the 
Parliamentarian right now, and we will make a decision on that 
very shortly.
    The Chair would also like to inform Members of the 
Committee that we intend to report this measure by roll call 
vote at the conclusion of our debate.
    I now recognize Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman.
    Despite the way it started, this has been one of the most 
interesting and substantive debates and discussions that we 
have had. I do wish to congratulate Mr. Bereuter for his 
opening statement. I thought it was very thoughtful, and there 
was little, if anything, that he said that I might disagree 
with.
    Also, I want to agree and associate myself with the remarks 
of Mr. Lantos, who, as usual, very succinctly summed up the 
thoughts of a great many of us, and I include myself in that 
area, especially thinking about what could the motivation of 
this be, and listening to the usual, unfortunately, usual 
partisan attacks on the Administration when we talk about a 
foreign policy issue.
    Like my friend Mr. Berman, I, too, wrote down, listening to 
the Chairman's opening statement, trying to figure out what the 
heck was meant by undue pressure, and I wrote those words down, 
and I am sure that if you search through your statement and 
read it again, Mr. Chairman, you might just find it. You said 
undue pressure. I had no idea what you were talking about. But 
when charges are made of that serious a nature, charging the 
Administration with doing something provocative, I think 
people, especially people in the positions of Members of 
Congress, should be prepared to back up what they say.
    The other thing that you said, three times during your 
statement, and I only wrote it down once, but you said it three 
times, the failure of the Administration to meet Taiwan's 
legitimate defense needs. You said that three times.
    I am unaware, Mr. Chairman, of any request made by the 
Taiwanese to the Administration for their defense needs that 
was turned down by the Administration. So I would be glad to 
yield to you, Mr. Chairman, if you would like to be specific 
and explain to me what request the Taiwanese made that was 
turned down?
    Mr. Bereuter. Would the gentleman yield?
    Mr. Ackerman. I would prefer the Chairman to answer, if he 
has any.
    Chairman Gilman. Were you addressing your inquiry to me or 
to Mr. Bereuter?
    Mr. Ackerman. Chairman Gilman, yourself.
    Chairman Gilman. I am sorry, we have been involved in a 
parliamentary inquiry. Would you restate?
    Mr. Ackerman. Yes, if it does not take from my time to 
repeat it. You criticized the Administration three times by 
using the phrase, failure to meet Taiwan's legitimate defense 
needs. My question, Mr. Chairman, is what request did Taiwan 
ever make, ever make, ever make to the Administration that was 
turned down? I am unaware of any.
    Chairman Gilman. Let me recite to you, there was a request 
for submarines by Taiwan which the Administration turned down; 
there was a request for early warning radar which the 
Administration turned down----
    Mr. Ackerman. If I might reclaim my time.
    Chairman Gilman [continuing]. Long-range missiles, that was 
requested.
    Mr. Ackerman. If I might reclaim----
    Chairman Gilman. Air defense missiles.
    Mr. Ackerman. If I might refresh the Chairman's 
recollection, there were discussions about that, but no request 
for them was ever made, and none was ever formally turned down 
by the Administration.
    Chairman Gilman. That is not my understanding, Mr. 
Ackerman. It is my understanding that there were requests, and 
the Administration did not act positively.
    Mr. Ackerman. I would make a unanimous consent request that 
the record be kept open so that the Chairman might submit for 
the record the copy of those requests.
    Chairman Gilman. We will be pleased to do that.
    [Note: This information is classified.]
    Mr. Ackerman. This Administration has been very supportive 
of Taiwan, as has this Congress. We all know that. We know that 
there has been no lack of--no ambiguity in the response of the 
Administration. After President Lee Teng-Hui's visit to Ithaca, 
New York, the Chinese did lob missiles toward Taiwan. The 
Administration responded by sending two aircraft career battle 
groups. I don't know what more positive indication the Chairman 
or anybody else would like to see about our commitment.
    On the other hand, I will vote for this. I think that 
inasmuch as it has been brought up, inasmuch as the major 
concerns such as the explicitness of the--.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Ackerman [continuing]. Of the material has been taken 
out and compromised, which were the major concerns that most of 
us have, we should be more concerned with how we treat 
democratic nations than worrying about the reaction of 
dictatorships who might throw a temper tantrum in order to 
modify our behavior.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Houghton.
    Mr. Houghton. Thank you very, very much, Mr. Chairman.
    Mr. Chairman, I would favor Mr. Campbell's motion to table 
and, absent that, then I am going to vote against this thing.
    Just very briefly, I think one of the things that 
characterizes this country always, is what works? What works? 
The Taiwan Relations Act has worked.
    Let me tell you about a conversation I had with Henry 
Kissinger several years ago. When he was going over to China 
and submitting the agenda of President Nixon and then the 
Chinese submitted their agenda and then they, of course, 
compromised on this and came up with a total one, which was 
ultimately the agenda for the meeting, he was amazed, because 
of all of the histrionics and all of the flamboyant statements 
in the paper, that the item of Taiwan was about 18th on the 
list of 20, and he said, why is this? They said, the only thing 
we ask of you is do not embarrass us publicly on Taiwan. We do 
not intend to attack. That is not our intent. We already have 
the concept of the One China policy. Just don't embarrass us.
    So I really feel that this tough guy, make-it-clear, spell-
it-out, let-them-have-it-straight approach, is wrong. It is 
wrong and it is insensitive to the conditions of the times, 
particularly when we are trying to establish a greater 
relationship with China, understanding the Taiwanese people 
know exactly what we are doing. Therefore, I would not support 
H.R. 1838.
    Thank you.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Houghton. Yes.
    Mr. Bereuter. I thank the gentleman for yielding on his 
time.
    I just did want to make it clear that, having listened to 
every classified briefing necessary to understand the weapons 
issue, I think I can say with confidence that the 
Administration has met all requests from the Taiwanese and, in 
fact, has gone beyond that in some instances. I want to say to 
the gentleman from New York, Mr. Ackerman, I think he is right 
in this respect.
    For example, one of the things frequently mentioned was 
diesel-powered submarines. We haven't produced a diesel-powered 
submarine in this country for over 2 decades, and the U.S. Navy 
will resist any commercial entity producing them because they 
don't want to see them in their inventory at any time in the 
future. This is not something that we can address directly.
    The Deputy Assistant Secretary of Defense--the chief 
negotiator with respect to arms issues out in the audience--Mr. 
Campbell, and I have tried to arrange classified briefings for 
everyone who wants to hear, but, on this issue, I think the 
Administration cannot be criticized.
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Just to back up the Chairman's statement, 
I have been to Taiwan on numerous occasions, and I have had 
some very serious discussions with the Executive Branch and the 
military in Taiwan, and I am sorry Mr. Bereuter has not had 
these same discussions.
    I want to make sure, Doug--I want to make sure I am 
commenting on what you had to say, Doug, so I want to make sure 
I am not doing it without you being able to hear. I am making a 
comment on what you just said, and I want to make sure you 
understand.
    Having been to Taiwan on numerous occasions, and having 
been in direct consultation with the highest levels of the 
Taiwanese government and the Taiwanese military, on numerous 
occasions they have talked about weapons systems they would 
like from the United States. This is their way of making a 
request. Just to be specific with you about it, how about an 
upgraded missile defense system which they have repeatedly 
requested in an unofficial way, and this Administration has 
repeatedly turned them down in that request?
    Mr. Bereuter. Will the gentleman yield?
    Mr. Rohrabacher. I yield.
    Mr. Bereuter. I cannot talk to you in this setting on that 
issue.
    Chairman Gilman. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    I don't think that this ought to be pictured as a Democrat 
versus Republican issue. I note that in general, Congress has 
been more pro-Taiwan than has any Administration. President 
Bush has made some statements in favor of Beijing that I think 
go beyond anything the current President has said, and it is 
not surprising that in a discussion where American values and 
support for democracy are on one side, and the geopolitics of 
getting along well with big, powerful countries might be on the 
other side of the argument, in every case I can identify where 
there is a tension between those two principles. 
Administrations and State Departments tend to be more 
deferential to powerful nations and to the geopolitical 
interests as they see them, and the Congress has been the 
repository of American support for democratic values.
    I think this is good legislation. I would point out that 
Taiwan is secure in its friendship with the people of the 
United States, and has apparently abstained from a nuclear 
weapons development program. One can only imagine what a 
Taiwan, feeling it had been abandoned by the United States, 
would feel it necessary to do.
    I would disagree with my colleague from Orange County when 
he argues that our military-to-military contacts are somehow 
secret, and discordant, and hidden from Beijing. I am confident 
that they are able to purchase copies of the Los Angeles Times, 
and I know that the article that Mr. Berman referred to in the 
Los Angeles Times could not have been written, except for the 
purpose, and with the consent of the Administration, with the 
purpose of letting the world know that we are standing by the 
people of Taiwan.
    I think this is excellent legislation. I think we have been 
sidetracked a bit on issues of whether it is appropriate to 
criticize or to praise the Clinton Administration. We could 
debate that all day. Fortunately, the debate on this resolution 
will end more quickly, and the focus of this resolution should 
be on what is the appropriate resolution for this Congress to 
pass.
    Having passed a very solid resolution on March 19, 1996, I 
think it would be a mistake to retreat from this resolution, 
and I would say that if there is an increase in tension in the 
Taiwan Straits, it is wrong to blame the United States or to 
blame Taipei. After all, it is Beijing which shot missiles over 
those Straits. We, being a large continental country, can only 
imagine how insecure it is to live on a small island and to 
know that if ship owners feel that their ships are in danger, 
then your island is effectively blockaded, and subject to 
deprivation of anything that it cannot produce. I think that if 
China once told America that Taiwan is 40th on their list, or 
28th on their list, and all they ask is not to be embarrassed, 
it would have been less embarrassing if Beijing had abstained 
from firing those missiles.
    Finally, I don't think we will ever be in a circumstance 
where Taiwan does not request things that we say yes to 
sometimes. It does not request things that we say no to. 
Perhaps we have said no, informally, at times when we should 
have said yes, or the other way around. But I think it would be 
a dereliction of duty of the Taiwanese military establishment 
not to at least informally ask for a little more than they 
think they are going to get.
    I am sure that while our Chairman may not be able to put in 
the record an official request denied document, that the 
gentleman from Orange County is correct. There must have been 
informal denials. Yet, if there were no informal denials, then 
we would have given Taiwan a blank check, or they would have 
asked for too little from their own standpoint.
    I think that this resolution, particularly as modified, is 
one that we should move to the Floor.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Lantos. Parliamentary inquiry, Mr. Chairman.
    Chairman Gilman. The gentleman will state it.
    Mr. Lantos. Has the decision been made with respect to 
Congressman Campbell's request?
    Chairman Gilman. Yes. Counsel has been in touch with the 
House Parliamentarian, and I am going to ask Mr. Weinberg to 
please recite the decision.
    Mr. Lantos. Mr. Chairman, I ask unanimous consent that 
after all Members who choose to express their views on this 
issue and the Administration will have had a chance to express 
its views on this issue, Congressman Campbell be allowed to 
make his motion.
    Chairman Gilman. You have asked for the Parliamentarian's 
explanation. I am about to ask Mr. Weinberg to please recite 
the Parliamentarian's decision.
    Mr. Weinberg.
    Mr. Weinberg. Mr. Chairman, the Parliamentarian has advised 
that the motion to table would be in order, and also stated 
that the motion to table would kill the amendment and the bill 
permanently. The Parliamentarian has not, however, been able to 
provide a--.
    Mr. Lantos. Did I hear you say permanently?
    Mr. Weinberg. As far as this bill, yes, sir. The bill would 
be put on the table.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Lantos. I will yield.
    Mr. Gejdenson. Just for my own curiosity, if the 
gentleman's motion is to table--the Chairman has already placed 
the substitute in order. So the gentleman's motion would be 
against the substitute, which hasn't been voted on yet, so 
then, if that were to pass, would we then vote on the 
underlying bill?
    Mr. Campbell. If the gentleman from California would yield.
    Mr. Lantos. I will be happy to yield.
    Mr. Campbell. Thank you.
    I would be happy, of course, to follow counsel, but, as I 
understand it, my motion to table should come after the 
Committee has adopted the substitute, and before we vote on the 
substitute, and I think Congressman Lantos's request was to 
make sure I didn't get passed over in the train that might be 
going at a high speed at that point, so I sure hope he renews 
his unanimous consent.
    Last, as I understand it, even though it is true that the 
motion to table kills this, there is no parliamentary 
impediment to an identical bill being introduced immediately. 
If I am wrong on that, I would yield to the Chairman or to the 
counsel to so inform me. In other words, let's not put to much 
weight on the word ``permanently.''
    Mr. Ackerman. Parliamentary inquiry, Mr. Chairman.
    Chairman Gilman. The gentleman will state it.
    Mr. Ackerman. Might I address it to the Parliamentarian?
    Chairman Gilman. Please.
    Mr. Ackerman. Is it not true that a motion is in order to 
remove from the table, which also requires the same majority 
vote?
    Mr. Weinberg. I was advised by the Parliamentarian that 
unanimous consent would be required to take the bill from the 
table if it had gone there.
    Mr. Ackerman. If the gentleman would yield, Mr. 
Parliamentarian, you can ask unanimous consent to remove it 
from the table--and that can be done with anything--but is it 
not so, that you can make a motion to remove from the table 
which requires a majority vote?
    Mr. Weinberg. I could ask the specific question, 
Congressman, but the implication of the response that I 
received from the Parliamentarian that said it would take 
unanimous consent to get it off the table, I think was meant to 
touch on your question as well as--.
    Mr. Ackerman. Would you review that with the 
Parliamentarian? If you review it in those terms, I think you 
might get a different answer from the Parliamentarian.
    Mr. Weinberg. I will do that.
    Mr. Gejdenson. If the gentleman would yield again, while 
this is all very interesting, of course, the motion to table is 
not unlike a motion in opposition to the bill itself, although 
there is a nuance of difference that should get approximately 
the same results, unless there are some Members who don't want 
to express themselves in opposition of the bill, but simply 
want to put it over for additional time.
    Mr. Campbell. If the gentleman would yield, on the record I 
said I would vote for this bill, but I would prefer that we 
not, so I am in exactly the situation that you say has no 
elements, and I am one element.
    Mr. Delahunt. Would the gentleman yield?
    Mr. Lantos. I am most happy to yield to all of my 
colleagues.
    Mr. Delahunt. I think Mr. Lantos----
    Chairman Gilman. Mr. Ackerman, if you will yield a moment.
    Mr. Delahunt. Mr. Lantos has yielded to me, Mr. Chairman.
    Chairman Gilman. Mr. Lantos has the time? Will you yield, 
please?
    Mr. Lantos. I already yielded, but I will yield to you, and 
then please line up so I may yield to the rest of you.
    Chairman Gilman. I am asking our counsel to clarify the 
request on the parliamentary questions, and I am going to ask 
Mr. Rohrabacher if he would set forth his--or, Mr. Weinberg, 
please set forth a clarification of the parliamentary 
questions.
    Mr. Weinberg. Mr. Chairman, the advice that I have received 
is that the motion to table, once agreed to, is final and can 
be reversed only by unanimous consent.
    Mr. Campbell. Would the gentleman yield?
    Mr. Lantos. I have yielded to Mr. Delahunt.
    Mr. Delahunt. Mr. Chairman, I think----
    Chairman Gilman. Mr. Delahunt.
    Mr. Delahunt. I think the import of the intention of Mr. 
Campbell was a mechanism, if you will, to allow for additional 
time to inquire as to what is clearly a discrepancy in terms of 
Members' understanding as to the facts. I think that is 
certainly due, and owing those of us who are not as conversant 
with these issues as Mr. Salmon, Mr. Bereuter, Mr. Lantos, Mr. 
Ackerman, and others.
    I find it interesting, listening to you, Chairman Gilman, 
regarding three specific requests from the Taiwanese, and then 
listening to Mr. Ackerman say that is absolutely not the case, 
and he being supported by Mr. Bereuter, in terms of the 
accuracy of Mr. Ackerman's statement. I think this is just too 
serious in terms of its implications, internationally, and for 
the United States, to move ahead at this point in time. Maybe 
what we should have done here is to have a hearing so that we 
could develop some evidence so that we could make some 
rational, intelligent decisions.
    I yield to Mr. Campbell, if I am correct in interpreting 
his intent.
    Mr. Lantos. To correct my friend, it is I who will yield to 
Mr. Campbell.
    Mr. Campbell. I would say, in candor, that you have a 
different view, but that the two are worth consideration. My 
view is that it is a dangerous time for us to be engaged in 
this. This is a time where it is wiser for us to have a little 
more discretion. But that if I am forced to, I would vote yes, 
based on what I know.
    The gentleman's point is, I think, a very helpful addition, 
saying that there are more facts for you to find.
    Since you have yielded to me, I do want to make clear, 
nothing prevents--since Mr. Lantos yielded, nothing prevents 
any Member from bringing back this identical resolution 
immediately. The idea about tabling is that it is not the right 
time. It is not a vote on the merits.
    I yield back.
    Chairman Gilman. I am asking Mr. Weinberg once again, he 
has some additional information from the Parliamentarian with 
regard to the inquiry on our procedure.
    Mr. Weinberg.
    Mr. Weinberg. Mr. Chairman, a motion to postpone to a date 
certain would take the bill with it to the date certain. Such a 
motion would be debatable, or the debate would be proper only 
on the advisability of the postponement, that a motion to table 
the motion to postpone would be in order, as would an amendment 
to such a motion.
    Thank you, Mr. Chairman.
    Mr. Lantos. Mr. Chairman, parliamentary inquiry.
    Chairman Gilman. Mr. Lantos, on your parliamentary inquiry.
    Mr. Lantos. Is it appropriate at this stage to offer a 
motion that further debate on this matter be postponed until 
after Subcommittee hearings on this subject?
    Chairman Gilman. Are you referring to a date certain?
    Mr. Lantos. As soon as Subcommittee hearings will have 
concluded.
    Chairman Gilman. In order to do that, I am informed we have 
to have a specific date.
    Mr. Lantos. My specific date is November 29.
    Chairman Gilman. Apparently, what you want to do is to put 
an obstacle in the path of getting this legislation considered 
by this Committee. Of course, your proposal would be in order 
if you have a date certain.
    Mr. Lantos. November 29, Mr. Chairman. I so move, Mr. 
Chairman.
    Chairman Gilman. There is a motion before the Committee to 
postpone consideration of this measure until November 29. The 
motion is proposed by Mr. Lantos. It is a debatable motion.
    Who seeks recognition?
    Mr. Lantos. I seek recognition.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. Mr. Chairman, as this wide-ranging discussion 
has clearly demonstrated, many, if not all Members of the 
Committee have doubts concerning certain factual 
representations. It is the ordinary--there is no order in the 
Committee, Mr. Chairman.
    Chairman Gilman. The gentleman is correct. May we have 
order, please? May we have order so that the gentleman may be 
heard? May we have order--.
    Mr. Lantos. The ordinary modus operandi----
    Chairman Gilman. The gentleman may proceed.
    Mr. Lantos. Thank you, Mr. Chairman.
    The ordinary modus operandi of this body, particularly when 
it comes to matters of such import, is to have extensive 
Subcommittee hearings, that all the facts and arguments may be 
presented, debated, analyzed, and then come to the Full 
Committee with recommendation. This clearly has not been the 
case in this instance, and I believe that my motion to postpone 
debate is in the public interest.
    I yield back the balance of my time.
    Chairman Gilman. Mr. Bereuter, point of inquiry. Did your 
Subcommittee hold any hearings on this issue?
    Mr. Bereuter. We did hold a hearing specifically on this 
issue in September.
    Chairman Gilman. In September. At this point, since there 
has been a question with regard to information that has been 
disclosed to the Committee, I am going to ask Mr. Kurt 
Campbell, who is here for the Administration, would you please 
take the witness's seat?
    Mr. Campbell, would you recite your title?
    Mr. Campbell. Thank you, Mr. Chairman.
    I am Kurt Campbell, Deputy Assistant Secretary of Defense 
at the Pentagon.
    Chairman Gilman. Are you one of our government's chief 
interlocutors with Taiwan on security matters? Is that correct?
    Mr. Campbell. Yes, I am.
    Chairman Gilman. In the course of your conversation with 
Taiwanese officials, you have become familiar with the U.S. 
weapons system that they are interested in acquiring?
    Mr. Campbell. That is correct.
    Chairman Gilman. In your opinion, has the government of 
Taiwan expressed interest in acquiring from the U.S., for 
example, the Aegis Air Defense System?
    Mr. Campbell. Mr. Chairman, if I may, please, as I have 
suggested to you in the past in previous hearings, the story of 
requests from Taiwan, the story of the United States offering 
various defense articles, is a complex one. I would recommend 
that if we want to proceed in this, that we do it in closed 
session. I think that would--we have offered this on several 
occasions, Mr. Chairman.
    Chairman Gilman. Mr. Campbell, could you tell us just yes 
or no, without getting into classified information? Has Taiwan 
made a request for----
    Mr. Lantos. Mr. Chairman, I think it is inappropriate to 
bully an Administration witness.
    Chairman Gilman. The gentleman is out of order.
    Has the Taiwanese government expressed an interest in 
acquiring the Aegis Air Defense System, yes or no?
    Mr. Ackerman. Mr. Chairman, the gentleman said he would 
like not to answer that question in open session, and I think 
that he knows as much about security issues as anyone.
    Chairman Gilman. The gentleman is out of order. The witness 
did not make that statement. The witness has been asked for a 
yes or no statement.
    Mr. Ackerman. No, the Chairman asked for a yes or no 
statement.
    Chairman Gilman. I said the witness is being asked to 
answer with a yes or no response.
    Mr. Ackerman. And he answered, Mr. Chairman, that it would 
be inappropriate in open session.
    Chairman Gilman. The gentleman is out of order.
    Would the witness please respond?
    Mr. Campbell. Mr. Chairman, as I stated, my preference 
would be to review the entire range----
    Chairman Gilman. I am not asking for the entire range. Is 
my request of you to classified for a yes or no response? Is 
that a classified matter?
    Mr. Campbell. Let me answer the question this way then, Mr. 
Chairman. The Taiwanese have requested early warning 
capability.
    Chairman Gilman. How about an AMRAAM air-to-air missile 
request?
    Mr. Campbell. The U.S. Administration has agreed to provide 
some form of early warning, and what we are working on now are 
the technical issues associated with the provision of such a 
system.
    Chairman Gilman. I am referring to the Aegis system and the 
AMRAAM system. Have they made a request for those systems? Just 
yes or no.
    Mr. Campbell. As I said, Mr. Chairman, I would prefer to go 
through each one of these issues in----
    Chairman Gilman. I am not asking for classified 
information. All I am asking is has a request been made, Mr. 
Campbell, for an air-to-air missile air defense system--the 
Aegis system and the AMRAAM system.
    Mr. Ackerman. Point of order, Mr. Chairman.
    Chairman Gilman. Yes, Mr. Ackerman. State your point of 
order.
    Mr. Ackerman. I believe it is not within the rules of the 
Committee to badger a witness.
    Chairman Gilman. I am not badgering the witness. All I am 
asking is--the gentleman is out of order. The witness is not 
being badgered.
    Mr. Ackerman. He has given the same answer four times; and 
when he is asked the fifth time, that is a badger, by 
definition.
    Chairman Gilman. You are out of order, Mr. Ackerman. We are 
not badgering the witness. All we are asking for is a very 
simple yes or no response.
    Can you respond, Mr. Campbell? Has the Taiwan government 
made a request for the Aegis system or the AMRAAM system?
    Mr. Campbell. Mr. Chairman, I have tried to respond to 
this. I would prefer to----
    Chairman Gilman. I know what you said about preferring, but 
can you answer with a yes or no answer?
    Mr. Campbell. Mr. Chairman, I think it is in the interest 
of this chamber, and the interest of the U.S. Government, for 
us to continue this discussion in private hearings. I would be 
happy to go into great detail about all aspects of the security 
relationship with Taiwan. If I can say, we have been standing 
by for 3 weeks to provide these briefings.
    Chairman Gilman. Mr. Campbell, the Committee has been 
accused of misleading our Members with regard to these 
requests. Can you clarify whether such requests have been made?
    Mr. Campbell. Mr. Chairman, I feel very confident that I 
can clarify all issues associated with our security 
relationship with Taiwan. I believe it is in the interest of 
this body, and the U.S. Government, to do this in a private 
hearing.
    Chairman Gilman. Once again, I am asking, can you answer, 
without breaching any confidential relationship, whether these 
requests were made?
    Mr. Ackerman. Parliamentary inquiry, Mr. Chairman.
    Chairman Gilman. The gentleman will state his parliamentary 
inquiry.
    Mr. Ackerman. Could the Chairman explain to us what 
constitutes badgering?
    Chairman Gilman. The gentleman is out of order. He is not 
stating a proper parliamentary inquiry.
    Mr. Delahunt. Mr. Chairman, a point of order.
    Chairman Gilman. Please state it.
    Mr. Delahunt. I wonder if the Chair could ask the 
gentleman, rather than simply asking him for either-or, 
whether, in his opinion, the question that the Chair is posing 
is susceptible to a simple yes or no answer, or is it 
necessary, in his opinion, in his role----
    Chairman Gilman. The gentleman's request is reasonable.
    Mr. Campbell, can you respond in that manner?
    Mr. Campbell. I can, Mr. Chairman. Let me just say that the 
arms sales process is classified. Every Administration since 
the introduction of the Taiwan Relations Act has treated it as 
such.
    Second, it would be fair to say, Mr. Chairman, that there 
had been a number of requests that Taiwan has made of us, both 
unofficially and officially, which we have discouraged. There 
has also been--let me go on, Mr. Chairman. There have also been 
a number of suggestions that the U.S. Government has made to 
Taiwan, in terms of process or arms sales that they should 
consider, which they have also refused.
    Furthermore--let me just go on, if I may, please. I am 
trying to answer the question. Furthermore, there have been a 
number of requests that Taiwan has made to the United States 
which we have approved which they have sought not to pursue. 
The reason that I give you this background, it is a much more 
complex picture than a yes or no answer can assess at this 
juncture.
    I would suggest, Mr. Chairman, that if you look at the 
major challenges that the Taiwanese face, anti-air, anti- 
submarine, amphibious, each of those areas, the U.S. Government 
believes that we have taken steps, early warning, that will 
allow Taiwan to take appropriate defensive steps. We believe 
that, frankly, we have taken extra efforts in the last several 
years to fulfill our obligations under the Taiwan Relations 
Act.
    I am not attempting to avoid the question, Mr. Chairman. I 
am simply stating that some of this information, I believe, is 
in the interest of the Members to know. I also believe it is 
not in the interest for us to be debating in public at this 
time.
    Chairman Gilman. Just one more question, Mr. Campbell, have 
any defense systems requests that the Taiwan government has 
made been turned down?
    Mr. Campbell. I think I have already made my statement on 
this issue in a more complex way, Mr. Chairman. I will just 
stand by the statement I made.
    Mr. Bereuter. Will the Chairman yield?
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I will just say, having looked at this in all of its 
classified ramifications that I can determine, I think that 
Deputy Assistant Secretary Campbell's response is a responsible 
one. It is the only one he can give in this situation.
    But I would also say to the Chairman that your and Mr. 
Gejdenson's substitute has taken care of this problem because 
you have eliminated specific references to the weapons system. 
I think we have taken the right course here, and I think we 
have gone as far as we legitimately can. If we were to hold 
other hearings at the Subcommittee or Committee level in order 
to really get to the heart of this issue, it has to be 
conceptual.
    Thank you.
    Mr. Lantos. Parliamentary inquiry, Mr. Chairman.
    Chairman Gilman. Mr. Lantos.
    Mr. Lantos. When will you call for a vote?
    Chairman Gilman. We are about to do that. There is a motion 
before us, and the debate is now only on the motion by Mr. 
Lantos.
    Mr. Manzullo is requesting time.
    Mr. Manzullo. I just have a question on general debate 
before you go to Mr. Lantos' motion, so my remarks are not 
appropriate at this time.
    Chairman Gilman. We are now, Mr. Manzullo, on the motion by 
Mr. Lantos to postpone debate.
    Mr. Salmon. Mr. Chairman?
    I would just like to speak in support of the Lantos motion. 
The reason that I do, as I think has been exemplified by the 
last 20 minutes, the fact is, there has not been a thorough 
going-over. The Administration has volunteered to provide 
information to us, sensitive information that could not be 
provided here in an open session, in a closed session. I am on 
the Asia Subcommittee which Chairman Bereuter chairs, but 
although we have talked many times about the policy regarding 
Taiwan and China, this specific bill has never been marked up. 
It has never been discussed in Subcommittee.
    Let's do it appropriately. I am not asking for us to 
overturn it at the present time. I think, let's be prudent 
here, let's postpone it. I think that the Representative from 
California's suggestion is a good one. This is so important. 
Let's take the time to do it right, and let's get all of the 
information we possibly can before we move ahead.
    Thank you.
    Mr. Delahunt. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Gilman. What is the unanimous consent request?
    Mr. Delahunt. I would ask if the gentleman from California, 
Mr. Lantos, would consider, in light of the remarks by the 
Chair of the Subcommittee, Mr. Bereuter, to amend his motion so 
that any hearings on this particular issue would be done in 
closed session.
    Mr. Lantos. I hereby do so.
    Chairman Gilman. That is an inappropriate motion. That has 
to be decided by the Subcommittee Chairman by a vote in the 
Subcommittee. House rules require that kind of vote.
    Mr. Sherman. Mr. Chairman, I would reluctantly oppose Mr. 
Lantos' motion. It seems like the only fact that is in 
contention is whether the United States has denied particular 
weapons requests from Taiwan. That is, at most, a sideline to 
the resolution. Not only that, it is only the details of that 
sideline that are in question.
    I think we had reached agreement that certainly we said no 
to Taiwan on occasion. Perhaps we haven't said no to a formal 
request, but we have said no to an informal request. We have 
said yes on occasion, and as the Administration representative 
pointed out, sometimes we say maybe, or how would you like this 
other weapons system that might meet your needs and/or meet the 
diplomatic needs of the United States. I think that, with that 
background, if we were to vote on this resolution that is 
before us, and that is there are times when the United States 
says yes and times when we say no, it could be the subject of 
some other hearings in evaluating whether the Administration 
has said yes or no to informal requests, but I don't think that 
that needs to hold up the passage of this resolution.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. First of all, I rise in strong opposition 
of this motion. I consider it to be an obstructionist motion. 
This is not being done in order to find out more information. 
Mr. Lantos is fully aware that there is no major issue that 
comes before this Committee. When I say major issue----
    Chairman Gilman. Will you put the mike a little closer?
    Mr. Rohrabacher. I rise in strong opposition to Mr. Lantos' 
motion. There is no issue that comes before this Committee that 
is a major issue, and an issue that is contentious, in which we 
are all agreed on what the facts are. It is as simple as that. 
This idea that we should postpone this decision today because 
we are in disagreement over the facts is a joke. The fact is, 
every time we come here and disagree, we have some contention 
as to what the facts are. Now, how do we determine what the 
facts are? We hold hearings at the Subcommittee level. Guess 
what? There has been a hearing at the Subcommittee level. I 
happen to be a Member of the Asia and Pacific Subcommittee. We 
held that hearing on September 15th.
    Let me note, in terms of what we just went through a few 
moments ago, that Assistant Secretary Campbell, his statement, 
has backed up the Chairman's contention. Listen very closely--
if you look very closely at his words, the Chairman's 
contention that there have been some of requests made by Taiwan 
that have been denied was backed up by exactly what the Deputy 
Assistant Secretary said. Of course, we have also an agreement 
for that. Mr. Sherman's statement acknowledges that that is par 
for the course. We agree on some things and disagree on others 
where we turn down some requests and accede to others.
    Mr. Chairman, I would just say, before I yield to my good 
friend, Mr. Gejdenson, I am a bit dismayed. I--having been a 
Member of this Committee at a time when the Democrats 
controlled this Committee, I don't remember a case where anyone 
on this side of the aisle ever badgered Mr. Hamilton, as the 
Chairman of this Committee, as we have seen today, and it seems 
to be the standard operating procedure that has been coming 
about. I don't like that. I don't think this is a gentlemanly 
way to handle this type of business. We should agree to 
disagree in a way that we respect each other's rights and 
respect each other's opinions. But I think that badgering the 
Chairman, as we have seen, really goes counter to that.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Rohrabacher. I would certainly yield to my good friend, 
Mr. Gejdenson.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Rohrabacher.
    Mr. Chairman. I want to join Mr. Rohrabacher in that China 
shop for a moment, and just say that I think we ought to defeat 
the motion. We ought to pass the resolution. I believe that the 
resolution has come to a proper balance of our concerns for 
gratuitously creating tensions in the region but firmly stating 
our support for a democratic government in the region.
    The reality is that the language we have before us, as even 
Mr. Bereuter agrees, is language that I think has struck a 
solid balance in favor of democracy without being disruptive. I 
would hope that Members would defeat the motion to table, and 
that we could then listen to Mr. Roth or not listen to Mr. 
Roth, as the Committee decides at that point, and then vote on 
the bill in an expeditious manner.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Before yielding, I just want to associate myself with Mr. 
Gejdenson's remarks. A great deal of time and effort and all of 
the--both parties, Majority and Minority, have been fully 
consulted and have worked on this bill. I would urge my 
colleagues to defeat the motion and to move forward with 
adoption of the measure so it can go to the Floor.
    Mr. Ackerman.
    Mr. Ackerman. Thank you very much, Mr. Chairman.
    First, I would like to apply to get a Rohrabacher 
certificate as being nondelusionary, and I am not sure how to 
apply. Absent that, I just want to--an interesting point was 
made before when it was said that if we do not vote until we 
have all of the facts before us we may be setting a very 
dangerous precedent.
    Some of the discussion that we have had concerning Taiwan's 
defense needs over the last few minutes, I would just like to 
clarify. The statement that Mr. Gilman made three times during 
his opening statement--one word has escaped many of us during 
the course of this discussion--he said, the Administration's 
failure to meet Taiwan's legitimate defense needs. The 
operative word is legitimate defense needs. It is quite 
possible, Mr. Chairman, and I will concede that, that maybe 
Taiwan has--and it is speculation on my part, because we have 
not gone into closed session--that Taiwan made some request, as 
every country does of us, that we might not have thought was a 
legitimate defense need, and in considering that we have had 
discussions with them.
    The point that I took up, Mr. Chairman, was the 
partisanship of continuing to harp on the Administration in the 
partisan fashion to say that they have failed to meet Taiwan's 
legitimate defense needs. Absent the witness from the Defense 
Department, if the Chairman knows of any legitimate defense 
needs that were made by Taiwan, as he recited three times, I 
think we are still open, and I think the record is open to hear 
that. But what you heard from the Administration, or from the 
Department of Defense, I believe, said that there might have 
been requests that they made formally or informally, that we 
dissuaded because of whatever reasons, and I read that as maybe 
they weren't legitimate requests, and I think that we should 
hear that. But I do not think that the facts are in dispute at 
all here, Mr. Chairman, and I suggest that we move forward.
    Chairman Gilman. The question is now on the motion to 
postpone the issue before the Committee to November 29, as 
offered by Mr. Lantos. All those in favor, signify by saying 
aye. Those opposed, say no.
    Chairman Gilman. The noes have it.
    Mr. Lantos. I ask for a recorded vote.
    Chairman Gilman. A recorded vote is requested. All in favor 
of a recorded vote, signify by a show of hands. A sufficient 
number. A recorded vote is requested, and a recorded vote will 
be taken.
    The clerk will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Gilman votes no.
    Mr. Goodling.
    Mr. Goodling. No.
    Ms. Bloomer. Mr. Goodling votes no.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. No.
    Ms. Bloomer. Mr. Bereuter votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Bloomer. Mr. Burton votes no.
    Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. No.
    Ms. Bloomer. Ms. Ros-Lehtinen votes no.
    Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Bloomer. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Bloomer. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Bloomer. Mr. Royce votes no.
    Mr. King.
    Mr. King. No.
    Ms. Bloomer. Mr. King votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Bloomer. Mr. Chabot votes no.
    Mr. Sanford.
    Mr. Sanford. Aye.
    Ms. Bloomer. Mr. Sanford votes aye.
    Mr. Salmon.
    Mr. Salmon. Aye.
    Ms. Bloomer. Mr. Salmon votes aye.
    Mr. Houghton.
    Mr. Houghton. Aye.
    Ms. Bloomer. Mr. Houghton votes aye.
    Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes aye.
    Mr. McHugh.
    Mr. McHugh. No.
    Ms. Bloomer. Mr. McHugh votes no.
    Mr. Brady.
    Mr. Brady. No.
    Ms. Bloomer. Mr. Brady votes no.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    Mr. Gillmor. No.
    Ms. Bloomer. Mr. Gillmor votes no.
    Mr. Radanovich.
    Mr. Radanovich. No.
    Ms. Bloomer. Mr. Radanovich votes no.
    Mr. Cooksey.
    Mr. Cooksey. No.
    Ms. Bloomer. Mr. Cooksey votes no.
    Mr. Tancredo.
    Mr. Tancredo. No.
    Ms. Bloomer. Mr. Tancredo votes no.
    Mr. Gejdenson.
    Mr. Gejdenson. No.
    Ms. Bloomer. Mr. Gejdenson votes no.
    Mr. Lantos.
    Mr. Lantos. Aye.
    Ms. Bloomer. Mr. Lantos votes aye.
    Mr. Berman.
    Mr. Berman. No.
    Ms. Bloomer. Mr. Berman votes no.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Bloomer. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    Mr. Brown. No.
    Ms. Bloomer. Mr. Brown votes no.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Sherman.
    Mr. Sherman. No.
    Ms. Bloomer. Mr. Sherman votes no.
    Mr. Wexler.
    Mr. Wexler. No.
    Ms. Bloomer. Mr. Wexler votes no.
    Mr. Rothman.
    Mr. Rothman. No.
    Ms. Bloomer. Mr. Rothman votes no.
    Mr. Davis.
    Mr. Davis. No.
    Ms. Bloomer. Mr. Davis votes no.
    Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    Mr. Delahunt. Aye.
    Ms. Bloomer. Mr. Delahunt votes aye.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Bloomer. Mr. Meeks votes aye.
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes aye.
    Mr. Crowley.
    Mr. Crowley. No.
    Ms. Bloomer. Mr. Crowley votes no.
    Mr. Hoeffel.
    Mr. Hoeffel. No.
    Ms. Bloomer. Mr. Hoeffel votes no.
    Chairman Gilman. The clerk will call the absentees.
    Ms. Bloomer.  Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    [No response.]
    Ms. Bloomer. Ms. Danner.
    Ms. Danner. No.
    Ms. Bloomer. Ms. Danner votes no.
    Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Pomeroy.
    [No response.]
    Chairman Gilman. How is Mr. Burr recorded?
    Ms. Bloomer.  Mr. Burr?
    Mr. Burr. No.
    Ms. Bloomer. Mr. Burr votes no.
    Chairman Gilman. The clerk will report the tally.
    Just a moment. Mr. Hastings. How is Mr. Hastings recorded?
    Ms. Bloomer. Mr. Hastings is recorded as not having voted.
    Chairman Gilman. Mr. Hastings?
    Mr. Hastings. No.
    Ms. Bloomer. Mr. Hastings votes no.
    Nine ayes and 30 noes.
    Chairman Gilman. The motion is not agreed to.
    If there are no further amendments, without objection, the 
previous question is ordered on the amendment in the nature of 
a substitute.
    The question is now on the amendment in the nature of a 
substitute. All those in favor, signify by saying aye. All of 
those opposed, say no.
    The amendment in the nature of a substitute is agreed to.
    The gentleman from Indiana, Mr. Burton, is recognized to 
offer a motion.
    Mr. Burton. Mr. Chairman, I move that the Committee report 
the bill, as amended, to the House, with a recommendation that 
the bill, as amended, do pass.
    Chairman Gilman. The question is on the motion of the 
gentleman from Indiana, Mr. Burton. Those in favor of the 
motion, signify by saying aye. Those opposed, say no.
    The ayes have it. A quorum being present, the motion is 
agreed to.
    Without objection, the Chair or his designee is authorized 
to make motions under rule 20 with respect to a conference on 
this bill or counterpart for the Senate.
    Mr. Ackerman.
    Mr. Ackerman. I request a recorded vote, Mr. Chairman.
    Chairman Gilman. A recorded vote is requested. All those in 
favor, signify by a show of hands. A sufficient number having 
been noted, a recorded vote is requested and ordered. The clerk 
will call the roll.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. Aye.
    Ms. Bloomer. Mr. Gilman votes aye.
    Mr. Goodling.
    Mr. Goodling. Aye.
    Ms. Bloomer. Mr. Goodling votes aye.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Aye.
    Ms. Bloomer. Mr. Bereuter votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    Ms. Bloomer. Mr. Smith votes aye.
    Mr. Burton.
    Mr. Burton. Aye.
    Ms. Bloomer. Mr. Burton votes aye.
    Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Aye.
    Ms. Bloomer. Ms. Ros-Lehtinen votes aye.
    Mr. Ballenger.
    Mr. Ballenger. Aye.
    Ms. Bloomer. Mr. Ballenger votes aye.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    Ms. Bloomer. Mr. Rohrabacher votes aye.
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Bloomer. Mr. Manzullo votes aye.
    Mr. Royce.
    Mr. Royce. Aye.
    Ms. Bloomer. Mr. Royce votes aye.
    Mr. King.
    Mr. King. Aye.
    Ms. Bloomer. Mr. King votes aye.
    Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Bloomer. Mr. Chabot votes aye.
    Mr. Sanford.
    Mr. Sanford. Aye.
    Ms. Bloomer. Mr. Sanford votes aye.
    Mr. Salmon.
    Mr. Salmon. No.
    Ms. Bloomer. Mr. Salmon votes no.
    Mr. Houghton.
    Mr. Houghton. No.
    Ms. Bloomer. Mr. Houghton votes no.
    Mr. Campbell.
    Mr. Campbell. Aye.
    Ms. Bloomer. Mr. Campbell votes aye.
    Mr. McHugh.
    Mr. McHugh. Aye.
    Ms. Bloomer. Mr. McHugh votes aye.
    Mr. Brady.
    Mr. Brady. Aye.
    Ms. Bloomer. Mr. Brady votes aye.
    Mr. Burr.
    Mr. Burr. Aye.
    Ms. Bloomer. Mr. Burr votes aye.
    Mr. Gillmor.
    Mr. Gillmor. Aye.
    Ms. Bloomer. Mr. Gillmor votes aye.
    Mr. Radanovich.
    Mr. Radanovich. Aye.
    Ms. Bloomer. Mr. Radanovich votes aye.
    Mr. Cooksey.
    Mr. Cooksey. Aye.
    Ms. Bloomer. Mr. Cooksey votes aye.
    Mr. Tancredo.
    Mr. Tancredo. Aye.
    Ms. Bloomer. Mr. Tancredo votes aye.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes aye.
    Mr. Lantos.
    Mr. Lantos. No.
    Ms. Bloomer. Mr. Lantos votes no.
    Mr. Berman.
    [No response.]
    Ms. Bloomer. Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Bloomer. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    [No response.]
    Ms. Bloomer. Mr. Brown.
    Mr. Brown. Aye.
    Ms. Bloomer. Mr. Brown votes aye.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    Mr. Hastings. No.
    Ms. Bloomer. Mr. Hastings votes no.
    Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes aye.
    Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes aye.
    Mr. Wexler.
    Mr. Wexler. Aye.
    Ms. Bloomer. Mr. Wexler votes aye.
    Mr. Rothman.
    Mr. Rothman. Aye.
    Ms. Bloomer. Mr. Rothman votes aye.
    Mr. Davis.
    Mr. Davis. Aye.
    Ms. Bloomer. Mr. Davis votes aye.
    Mr. Pomeroy.
    [No response.]
    Ms. Bloomer. Mr. Delahunt.
    Mr. Delahunt. No.
    Ms. Bloomer. Mr. Delahunt votes no.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Bloomer. Mr. Meeks votes aye.
    Ms. Lee.
    Ms. Lee. No.
    Ms. Bloomer. Ms. Lee votes no.
    Mr. Crowley.
    Mr. Crowley. Aye.
    Ms. Bloomer. Mr. Crowley votes aye.
    Mr. Hoeffel.
    Mr. Hoeffel. Aye.
    Ms. Bloomer. Mr. Hoeffel votes aye.
    Chairman Gilman. The clerk will report the tally.
    Please call the absentees.
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    [No response.]
    Ms. Bloomer. Mr. Faleomavaega.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    [No response.]
    Ms. Bloomer. Mr. Menendez.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hilliard.
    [No response.]
    Ms. Bloomer. Mr. Pomeroy.
    [No response.]
    Chairman Gilman. The clerk will report the tally.
    Ms. Bloomer. On this vote, there were 32 ayes and 6 noes.
    Chairman Gilman. The motion is agreed to. The ayes have it. 
A quorum being present, the motion is agreed to.
    Without objection, the Chair's designee is authorized to 
make a motion under rule 20 with respect to a conference on 
this bill or a counterpart from the Senate.
    Without objection, the Chief of Staff is authorized to make 
technical and conforming and grammatical changes to the measure 
adopted by the Committee.
    The Committee stands adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            October 26, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4747.001
    
    [GRAPHIC] [TIFF OMITTED] T4747.002
    
    [GRAPHIC] [TIFF OMITTED] T4747.003
    
    [GRAPHIC] [TIFF OMITTED] T4747.004
    
    [GRAPHIC] [TIFF OMITTED] T4747.005
    
    [GRAPHIC] [TIFF OMITTED] T4747.006
    
    [GRAPHIC] [TIFF OMITTED] T4747.007
    
    [GRAPHIC] [TIFF OMITTED] T4747.008
    
    [GRAPHIC] [TIFF OMITTED] T4747.009
    
    [GRAPHIC] [TIFF OMITTED] T4747.010
    
    [GRAPHIC] [TIFF OMITTED] T4747.011
    
    [GRAPHIC] [TIFF OMITTED] T4747.012
    
    [GRAPHIC] [TIFF OMITTED] T4747.013
    
    [GRAPHIC] [TIFF OMITTED] T4747.014
    
    [GRAPHIC] [TIFF OMITTED] T4747.015
    
    [GRAPHIC] [TIFF OMITTED] T4747.016
    
    [GRAPHIC] [TIFF OMITTED] T4747.017
    
    [GRAPHIC] [TIFF OMITTED] T4747.018
    
    [GRAPHIC] [TIFF OMITTED] T4747.019
    
    [GRAPHIC] [TIFF OMITTED] T4747.020
    
    [GRAPHIC] [TIFF OMITTED] T4747.021
    
    [GRAPHIC] [TIFF OMITTED] T4747.022
    
    [GRAPHIC] [TIFF OMITTED] T4747.023
    
    [GRAPHIC] [TIFF OMITTED] T4747.024
    
    [GRAPHIC] [TIFF OMITTED] T4747.025
    
    [GRAPHIC] [TIFF OMITTED] T4747.026
    
    [GRAPHIC] [TIFF OMITTED] T4747.027
    

</pre></body></html>
